Pg
I

C@OCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

L ega i Brie fs E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-1088
DAVID CARSON,
as Parent and Next Friend of O. C., et al.,
Petitioners,
v.

A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of September, 2021, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF PROFESSOR MICHAEL W. MCCONNELL AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:
L. MARTIN NUSSBAUM
Counsel of Record
ANDREW M. NUSSBAUM
NUSSBAUM SPEIR GLEASON PLLC
2.N. Cascade Avenue, Suite 1430
Colorado Springs, Colorado 80903
(719) 428-1919
martin@nussbaumspeir.com
andrew@nussbaumspeir.com

Counsel for Amicus Curiae

Subscribed and sworn to before me this 8th day of September, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY State of Mobraska )udvaw-- &v Chk
RENEE J. GOSS: .

Notary Public Affiant 41311

My Comm. Exp. September 5, 2023

 

 
Michael Eugene Bindas
Institute for Justice
600 University Street
Suite 1730

Seattle, WA 98101

mbindas@ij.org
206-957-1300

Sarah Ann Forster

Office of the Attorney General
6 State House Station
Augusta, ME 04333

sarah. forster@maine.gov
207-626-8866

Mr. Bindas and Ms. Forster are counsel for the petitioners and respondents,
respectively
